            Office Of Inspector General



.



December 10, 2003

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT: Compendium of Prior Audits Addressing the Postal Service’s Injury
         Compensation Program (Product Number HM-OT-04-002)

This self-initiated information report provides a Compendium of Prior Audits Addressing
the Postal Service’s Injury Compensation Program (Project Number 03YS002HK000).
This report is one of two reports providing a history of the Postal Service’s Injury
Compensation Program. It also provides a quick reference and summary of our prior
audit reports and of the respective management challenges those audits addressed.
This report covers the audit work we accomplished from September 1998 through
December 2003. At appropriate intervals, the Office of Inspector General may issue
future information reports that summarize audits of the Postal Service’s Injury
Compensation Program.

We briefed Postal Service management on this report. Because the report does not
contain recommendations, no formal response from management is required. However,
if you wish to submit a written response to this report, please notify us. If you have
questions or need additional information, please contact Erica Blackman, director,
Health Care Audit (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Ronald E. Henderson
    James J. Rowan, Jr.
    Susan M. Duchek




.    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Compendium of Prior Audits Addressing the Postal          HM-OT-04-002
 Service’s Injury Compensation Program


                            TABLE OF CONTENTS
 Introduction

     Background                                                1

 Management Challenges                                         1

 Compendium of Prior Audits                                    1

     Program Administration                                    2
     Claims Processing                                         2
     Continuation of Pay Leave Benefits                        3

 Report Summaries on Program Administration                    4
 Report Summaries on Claims Processing                        13
 Report Summaries on Continuation of Pay Leave Benefits       17
 Summary of Recommendations                                   21
Compendium of Prior Audits Addressing the Postal                             HM-OT-04-002
 Service’s Injury Compensation Program


                                       BACKGROUND
This self-initiated information report is one of two reports providing a history of the
Postal Service’s Injury Compensation Program. It also provides a quick reference and
summary of our prior audit reports and of the respective management challenges those
audits addressed. This report covers the audit work we accomplished from
September 1998 through December 2003. Both reports serve as resource tools for
Postal Service and Office of Inspector General (OIG) management.

The OIG assists Postal Service management in the protection of its workforce by
conducting audits to prevent and detect fraud, waste, abuse, and mismanagement
related to the Postal Service’s Injury Compensation Program. The Postal Service has a
workforce that is heavily engaged in production and delivery work and that work
inherently creates injury claims, which are filed with the Department of Labor, Office of
Workers’ Compensation Programs. For all federal agencies, the Department of Labor,
Office of Workers’ Compensation Programs, adjudicates the acceptance of injury claims
for federal employees and once the claims are accepted, manages compensation and
medical payments to support injured employees until they are able to return to work.

                                   Management Challenges

The Postal Service is the largest participant in the Federal Workers’ Compensation
Program and its cash outlays for claims have risen dramatically, increasing by
approximately 35 percent over the last 3 years. Factors such as higher costs for
medical equipment, medications, and treatment; overpayment of claims; and increased
incidents of fraud by service providers have contributed to these increased costs. To
aid the Postal Service in addressing these challenges the OIG will continue to:

       •   Identify factors that contribute to the increasing workers’ compensation costs.
       •   Evaluate the administration of the program.
       •   Partner with the Department of Labor, OIG to find ways to reduce injury
           compensation costs.

                                 Compendium of Prior Audits

From September 1998 through December 2003, the OIG issued 16 reports,
one closeout letter, one white paper, and (including this report) two information reports
to Postal Service management. In our previous reports, we found three subject areas
that continue to represent management challenges:

       •   Program administration.
       •   Claims processing.
       •   Continuation of Pay Leave Benefits.




                                                   1
Compendium of Prior Audits Addressing the Postal                                                     HM-OT-04-002
 Service’s Injury Compensation Program


Program Administration

We issued seven reports, one white paper, and (including this report) two information
reports on the administration of the Postal Service’s Injury Compensation Program:1

        •    Workers' Compensation Case Management (Report Number HC-AR-98-001,
             dated September 30, 1998).

        •    Medical Records Contained in Workers’ Compensation Files (Report Number
             HC-MA-99-001, dated March 29, 1999).

        •    Southwest Area’s Efforts in Obtaining Appropriate Chargeback Credits for
             Identified Wage Compensation Overpayments and Refundable
             Disbursements (Report Number LH-AR-02-003, dated May 8, 2002).

        •    Postal Service Increased Workers’ Compensation Costs (Product Number
             HK-OT-02-001, dated August 29, 2002).

        •    Retirement Eligible Postal Service Employees on the Workers’ Compensation
             Periodic Rolls (Report Number HK-MA-03-001, dated March 21, 2003).

        •    Postal Service’s Death Benefit Payments to Decedent’s Survivors (Report
             Number HK-MA-03-002, dated March 31, 2003).

        •    Postal Service’s Arrangement with a Preferred Provider Organization (Report
             Number HK-AR-03-001, dated March 31, 2003).

        •    Southeast Area Employees on the Periodic Roll with No Wage Earning
             Capacity or Reemployment Determination (Report Number HK-AR-03-003,
             dated August 8, 2003).

        •    Postal Service’s Injury Compensation Program – Past and Present (Product
             Number HM-0T-04-001, dated December 10, 2003).

Claims Processing

We issued four reports on claims processing issues in the Postal Service’s Injury
Compensation Program:2




1
  See pages 4 through 12 of this report, which summarizes each of the seven reports, one white paper, and (including
this report) two information reports on program administration.
2
  See pages 13 through 16 of this report, which summarizes each of the four reports on claims processing.




                                                         2
Compendium of Prior Audits Addressing the Postal                                                     HM-OT-04-002
 Service’s Injury Compensation Program



        •    Northern Virginia District’s Process for Submitting, Controverting, and
             Challenging Injury Claims (Report Number HC-AR-99-001, dated
             September 29, 1999).

        •    Allegation Concerning the Middlesex District Injury Claim Form CA-1, (Report
             Number HC-MA-00-001, dated February 29, 2000).

        •    Allegation Concerning the Untimely Submission of Injury Claims, Albuquerque
             District (Report Number HC-MA-00-002, dated March 21, 2000).

        •    Shared Service Center Injury Compensation Program, (Report Number
             HK-AR-03-002, dated June 19, 2003).

Continuation of Pay Leave Benefits

The OIG issued five reports and one closeout letter on the process for administering
continuation of pay leave benefits:3

        •    South Jersey Performance Cluster’s Process for Administering Continuation
             of Pay Leave Benefits, (Report Number HC-AR-00-001, dated September 28,
             2000).

        •    Lancaster Performance Cluster’s Process for Administering Continuation of
             Pay Leave Benefits, (Report Number HC-AR-00-003, dated September 28,
             2000).

        •    Erie Performance Cluster’s Process for Administering Continuation of Pay
             Leave Benefits, (Report Number HC-AR-00-002, dated September 28, 2000).

        •    Cleveland Performance Cluster’s Process for Administering Continuation of
             Pay Leave Benefits, (Report Number HC-AR-01-001, dated September 28,
             2001).

        •    Columbus Performance Cluster’s Process for Administering Continuation of
             Pay Leave Benefits, (Report Number HC-AR-01-002, dated September 28,
             2001).

        •    Closure of the Audit of the Allegheny Area Process for Administering
             Continuation of Pay Leave Benefits, Closure Letter, October 26, 2001.



3
 See pages 17 through 20 of this report, which summarizes each of the five reports and one closeout letter on
continuation of pay leave benefits.




                                                         3
Compendium of Prior Audits Addressing the Postal                                  HM-OT-04-002
 Service’s Injury Compensation Program


          REPORT SUMMARIES ON PROGRAM ADMINISTRATION

   Workers’                     The purpose of this audit was to determine whether the
   Compensation Case            Pacific Area was managing workers’ compensation costs in
   Management (Report           the best interest of the Postal Service. We reviewed
   Number                       64 workers’ compensation cases and found 28 employees
   HC-AR-98-001, Dated          (44 percent) were overpaid. Our review showed
   September 30, 1998)          overpayments were not identified or recovered because the
                                current Postal Service process was not comprehensive
                                enough to identify compensation overpayments. In addition,
                                injury compensation specialists must use a time-consuming
                                process to identify all potential overpayments. Our review
                                showed that in the cases reviewed, they frequently did not
                                use this process. By not aggressively following up with the
                                Office of Workers’ Compensation Programs to ensure
                                appropriate adjustments from overpayments, the Postal
                                Service did not recover all credits due. Specifically, we
                                found the 28 cases contained about $124,000 in
                                compensation overpayments, of which the Office of
                                Workers’ Compensation Programs credited about
                                $17,000 to the Postal Service.

                                The Pacific Area had worked to increase efficiency in
                                managing compensation cases by using a claims database
                                program developed by Postal Service personnel at the Long
                                Beach performance cluster. The program could be used to
                                monitor third-party claims. Although the Pacific Area
                                provided the program to all of its performance clusters, not
                                all of them were using this resource. In addition, there was
                                no specific process for monitoring and tracking third-party
                                claims. Without a standardized process, there is no
                                assurance the Postal Service can monitor and track the
                                status of third-party claims to ensure appropriate recoveries.

                                We recommended management ensure a comprehensive
                                review is performed on workers’ compensation cases when
                                it is determined an employee will be returning to work. We
                                also recommended management separately track identified
                                compensation overpayments (including third-party claims)
                                received from the Office of Workers’ Compensation
                                Program. Finally, management should ensure full utilization
                                of the claims database in all performance clusters in the
                                Pacific Area and ensure any problems with installation and
                                the application system are corrected.




                                                   4
Compendium of Prior Audits Addressing the Postal                                           HM-OT-04-002
 Service’s Injury Compensation Program


                                 Management agreed to require areas and districts to monitor
                                 all workers’ compensation recipients who return to work until
                                 the Office of Workers’ Compensation Programs changes the
                                 payment status in its system.

    Medical Records              We completed a separate audit of workers' compensation
    Contained in                 cases administered in the Pacific Area.4 During that audit,
    Workers’                     we discovered unrelated administrative records and the
    Compensation Files           misuse of sensitive psychiatric records in the workers'
    (Report Number               compensation case files. Due to the sensitivity of this
    HC-MA-99-001, Dated          discovery, we felt the issue needed to be discussed
    March 29, 1999)              separately in this management advisory report. The files we
                                 reviewed also contained Equal Employment Opportunity
                                 records and medical records that were not relevant to the
                                 cases reviewed and should not have been included in the
                                 injury compensation claim files.

                                 We recommended management direct personnel in injury
                                 compensation offices to include only relevant documents in
                                 workers’ compensation files. Management should also
                                 reemphasize the appropriate use of sensitive medical
                                 information and the legal obligations imposed by the Privacy
                                 Act as they relate to individuals who have access to this
                                 information.

                                 Management agreed only relevant medical information
                                 should be included in the injury compensation claims files,
                                 and unrelated information such as Equal Employment
                                 Opportunity records should not be maintained in the files.
                                 Management also agreed sensitive medical information in
                                 the claims files should be used only for matters related to
                                 the claims. Finally, management stated all employees
                                 assigned to injury compensation offices, including transient
                                 workers, would receive proper instructions regarding the
                                 requirements of the Privacy Act. Management’s comments
                                 were responsive to issues discussed in the report.




4
 See our discussion of Workers’ Compensation Case Management (Report Number HC-AR-98-001, dated
September 30, 1998), on page 4 of this report.




                                                   5
Compendium of Prior Audits Addressing the Postal                                 HM-OT-04-002
 Service’s Injury Compensation Program




   Southwest Area’s             We issued an audit report on the Southwest Area regarding
   Efforts in Obtaining         the monitoring of chargeback credits, requesting credits for
   Appropriate                  overpayment or duplicated payment of claims, and
   Chargeback Credits           refundable disbursements. We determined Postal Service’s
   for Identified Wage          policies were sufficient to ensure appropriate chargeback
   Compensation                 credit adjustments, were received; however, some
   Overpayments and             performance clusters did not implement follow-up
   Refundable                   procedures or did not adhere to the policies. As a result, the
   Disbursements                Postal Service did not receive chargeback credit
   (Report Number               adjustments for approximately $286,000. We also projected
   LH-AR-02-003, Dated          that follow up had not been done on 223 cases,
   May 8, 2002)                 representing wage compensation overpayments valued at
                                $702,000.

                                We recommended Postal Service management renew its
                                emphasis on monitoring overpayments and disbursements;
                                issue follow-up procedures that adhere to existing policies;
                                develop a system to track previously identified wage
                                compensation overpayments; and review the cases the OIG
                                did not audit to determine whether credit adjustments were
                                received nationwide.

                                Management agreed with our recommendations and
                                management’s comments were responsive to our
                                recommendations and the actions taken and planned should
                                correct the issues identified in this report.

   Postal Service               At a Board of Governors meeting, we were asked the
   Increased Workers’           following questions:
   Compensation Costs
   (Product Number                  •   Why are Workers’ Compensation costs increasing?
   HK-OT-02-001, Dated
   August 29, 2002)                 •   Can the Postal Service establish a separate benefits
                                        program?

                                Our analysis indicated that many factors are beyond the
                                control of the Postal Service have contributed to an increase
                                in workers’ compensation costs. Since 1998, the Postal
                                Service’s annual workers’ compensation costs increased by
                                42 percent from $567 million to $805 million in 2002.




                                                   6
Compendium of Prior Audits Addressing the Postal                                  HM-OT-04-002
 Service’s Injury Compensation Program



                                One factor is the rising age of the Postal Service workforce.
                                The Postal Service workforce is very stable, and compared
                                with the national workforce, Postal Service employees are
                                more likely to be over age 44.

                                A second factor is higher costs for medical equipment,
                                medications, and treatments. All measures taken in the past
                                few decades, from wage and price controls to managed
                                care, have failed to stem rising costs.

                                A third factor is overpayments by the Department of Labor,
                                which increase costs to all federal agencies. This includes
                                duplicate payments to providers; bills paid more than 1 year
                                after the service was rendered, and payments for overpriced
                                medical supplies or equipment not included in fee
                                schedules.

                                A fourth factor is the increased incidence of fraud by doctors
                                and hospitals. The OIG is the lead agency in a federal task
                                force investigating fraudulent medical claims by fictitious
                                medical providers.

                                The Postal Service cannot establish its own workers’
                                compensation program without enabling legislation.
                                The Federal Employees’ Compensation Act, under
                                Section 1005(c) of the Postal Reorganization Act, covers
                                Postal Service employees. Administrative responsibility for
                                the act is assigned to the Department of Labor, which has
                                delegated that responsibility to the Office of Workers’
                                Compensation Programs.

                                In May 1995, the Postal Service contracted with a private
                                accounting firm to analyze the costs and benefits of
                                converting from federal workers’ compensation coverage to
                                state coverage, either by self-insurance or private insurance
                                coverage. The accounting firm concluded that significant
                                savings could be achieved, but legislation would be required
                                to convert to state coverage.

                                The firm also reported that reforms to the Federal
                                Employees’ Compensation Act could result in greater
                                savings than converting to state coverage. Provisions for




                                                   7
Compendium of Prior Audits Addressing the Postal                                                        HM-OT-04-002
 Service’s Injury Compensation Program



                                      changing cost-of-living adjustments and mandatory
                                      retirement would affect a larger universe of claimants than
                                      prospective state coverage.

                                      Our report was informational only and did not contain
                                      recommendations.

    Retirement Eligible               This review disclosed Postal Service employees, age 55 and
    Postal Service                    older, make up 49 percent (6,500) of the approximately
    Employees on the                  13,400 employees on the periodic rolls.5 Further, 70 percent
    Workers’                          (9,345) of the employees on the periodic rolls are totally
    Compensation                      disabled (with little or no future reemployment potential) or
    Periodic Rolls                    reemployment has not been determined. We also found that
    (Report Number                    as the Postal Service workers’ compensation costs continue
    HK-MA-03-001,                     to increase, the Postal Service should seek relief from the
    Dated March 21,                   administrative fees paid annually to the Office of Workers’
    2003)                             Compensation Programs.

                                      Legislative reform of the Federal Employees’ Compensation
                                      Act (the act) is needed to address concerns that the act has
                                      become, in effect, a retirement system for some workers’
                                      compensation beneficiaries. Since the Postal Service’s
                                      workers’ compensation costs account for 35 percent of the
                                      program’s total costs, legislative reform would give the
                                      Postal Service financial relief.

                                      We recommended management pursue whether the Postal
                                      Service should seek congressional assistance to offset
                                      annual administrative fee payments.

                                      Management agreed with our recommendation, indicating
                                      they have supported efforts to change the act, which would
                                      alter the program’s structure. Management further stated
                                      that although legislation has not yet been introduced in the
                                      108th Congress, the administration stated in its 2004 budget
                                      that it intends to propose legislation to strengthen program
                                      integrity and to make the act more equitable and easier to
                                      administer.




5
 Employees on the periodic rolls have permanent disabilities or injuries that have lasted or are expected to last for
prolonged periods (over 1 year).




                                                           8
Compendium of Prior Audits Addressing the Postal                                                     HM-OT-04-002
 Service’s Injury Compensation Program




   Postal Service’s                  We issued a management advisory report presenting the
   Death Benefit                     results of our self-initiated review of the Postal Service’s
   Payments to                       Death Benefit Payments to decedent’s survivor(s) within the
   Decedents’ Survivors              Capitol Metro, Southeast, and Southwest Areas. We
   (Report Number                    determined the Postal Service’s Injury Compensation
   HK-MA-03-002,                     Control Office did not effectively monitor or review death
   Dated March 31,                   benefit claim files. In addition, we found that the Office of
   2003)                             Workers’ Compensation Programs death claim files did not
                                     always contain current documentation, such as
                                     Forms CA-126 and EN-1615.7

                                     We also found the Office of Workers’ Compensation
                                     Programs continued providing benefits to survivors who
                                     remarried before age 55 and paid benefits to a deceased
                                     survivor. In addition, our review identified a third-party
                                     award check for over $29,000 that was submitted to the
                                     Office of Workers’ Compensation Programs but was not
                                     credited to the Postal Service’s chargeback account in a
                                     timely manner. This occurred because the Injury
                                     Compensation Control office perceived the monitoring and
                                     reviewing of death claims as the responsibility of the Office
                                     of Workers’ Compensation Programs. Also, the Postal
                                     Service did not provide area control offices with adequate
                                     training and procedures for handling death benefit claims
                                     after approval by the Office of Workers’ Compensation
                                     Programs. As a result, the Office of Workers’ Compensation
                                     Programs paid an estimated $1.3 million to survivors for
                                     benefits that were questionable.

                                     We recommended Injury Compensation Control Office staff
                                     should coordinate with the Office of Workers’ Compensation
                                     Programs district offices and review all death benefit claims
                                     to verify survivors’ entitlement. Management did not agree
                                     nor disagree with our recommendations.




6
  Office of Workers’ Compensation Programs Form CA-12 is used by survivors to report their current marital status,
dependent status, employment, and receipt of other benefits each year.
7
  Office of Workers’ Compensation Programs Form EN-1615 is used by children between the ages of 18 and 23 to
report whether they are pursuing a course of full-time study.




                                                         9
Compendium of Prior Audits Addressing the Postal                                   HM-OT-04-002
 Service’s Injury Compensation Program




   Postal Service               We issued an audit report on the Postal Service’s
   Arrangement with a           arrangement with a preferred provider organization. This
   Preferred Provider           arrangement was designed to help the Postal Service
   Organization (Report         achieve annual medical cost savings in the Injury
   Number                       Compensation Program. The review found the Postal
   HK-AR-03-001, Dated          Service did not use appropriate contracting practices in its
   March 31, 2003)              arrangement with the preferred provider organization. As a
                                result, the contract exposed the Postal Service to
                                unnecessary risks from legal claims, protests, adjustments,
                                and contract termination.

                                We recommended Postal Service management instruct the
                                contracting officer to continue developing contract
                                documentation for negotiations, justification for
                                noncompetitive purchases, and cost analyses. We also
                                recommended the Postal Service renegotiate the contract to
                                increase its percentage of medical cost savings.

                                Management agreed, in effect, with all five
                                recommendations, but did not agree with our finding or with
                                certain other aspects of the report. Management disagreed
                                with the classification of the contract as a sole-source
                                contract and considered the contract to be a low-value
                                noncompetitive contract. Although management stated the
                                contractor’s share might exceed $10 million in the future,
                                management considered the contract to be valued at
                                $75,000, and noted the amount fell within the former
                                contracting officer’s approval authority. Management also
                                did not agree the former contracting officer’s actions left the
                                Postal Service vulnerable to claims and protests. However,
                                management stated that although the future contract will be
                                issued at no costs to the Postal Service, the current
                                contracting officer plans to obtain the approval of the vice
                                president, Supply Management, since the contract is
                                important to the Postal Service.




                                                   10
Compendium of Prior Audits Addressing the Postal                                                     HM-OT-04-002
 Service’s Injury Compensation Program




    Southeast Area                   This report presents the results of our audit of workers’
    Employees on the                 compensation cases classified by the Department of Labor,
    Periodic Roll With No            Office of Workers’ Compensation Programs, as having no
    Wage Earning                     wage earning capacity or reemployment determination.8
    Capacity or                      Our audit disclosed that Central Florida and South Georgia
    Reemployment                     District officials were proactive in managing cases of
    Determination                    employees on the periodic roll. Also, injury compensation
    (Report Number                   officials in both districts periodically coordinated with the
    HK-AR-03-003, Dated              Office of Workers’ Compensation Programs to initiate
    August 8, 2003)                  actions to resolve case issues. However, one district had
                                     difficulty getting responses from the Office of Workers’
                                     Compensation Programs on the medical status of
                                     employees.

                                     In addition, the Postal Service could be paying medical
                                     charges for nonwork-related injuries for separated
                                     employees. In the Central Florida District, a separated
                                     employee received medical treatment for nonwork-related
                                     injuries totaling approximately $350,000. The injury
                                     compensation manager made numerous written requests for
                                     the Office of Workers’ Compensation Programs to review
                                     this case, but the requests were unanswered for 6 years.
                                     We plan to conduct a follow-up audit on this issue.

                                     Management addressed one area of concern in our report
                                     regarding the periodic roll categories. Management
                                     indicated the periodic roll category limited duty should be
                                     changed to partial wage-earning capacity as defined by the
                                     Department of Labor. Management noted limited duty is a
                                     term used by the Postal Service and provided to employees
                                     injured at work who are unable to perform their regular
                                     duties.

                                     Our report did not contain recommendations. However, we
                                     reviewed management’s comments and other supporting
                                     documentation and revised the report to reflect the title used
                                     by the Department of Labor.




8
 The Office of Workers’ Compensation Programs classifies injured employees on the periodic roll in five categories.
One category–no wage earning capacity or reemployment not determined, consists of employees on the periodic roll
who have permanent disabilities or injuries that have lasted or expected to last for prolong periods over 1 year.




                                                        11
Compendium of Prior Audits Addressing the Postal                                                      HM-OT-04-002
 Service’s Injury Compensation Program




    Postal Service’s                 This report is one of two reports that provide a history of the
    Injury Compensation              Postal Service’s Injury Compensation Program (Postal
    Program – Past and               Service Program).9 This report provides an informational
    Present (Product                 primer to help facilitate critical evaluations of future program
    Number                           initiatives. It encompasses the inception of Postal Service
    HM-OT-04-001 Dated               operations in July 1971 through December 2003. This
    December 10, 2003)               report includes the following:

                                              •    Chargeback Cost data.

                                              •    Management Challenges related to the Postal
                                                   Service Program.

                                              •    History of the Federal Employees’ Compensation
                                                   Act (the act) and the Postal Service Program.

                                              •    Role and Structure of both the Postal Service and
                                                   the Department of Labor, Office of Workers’
                                                   Compensation Programs (Workers’ Compensation
                                                   Programs).

                                              •    Administration of the act and Funding of Workers’
                                                   Compensation and Postal Service Programs

                                              •    Entitlements to Benefit Injured Federal
                                                   Employees.

                                              •    Roles and Responsibilities and Discussion of the
                                                   claims process.

                                              •    Current Postal Service Program initiatives.

                                              •    Program Oversight.

                                     The report was written for informational purposes to benefit
                                     Postal Service and OIG management and did not
                                     contain recommendations to Postal Service management.
                                     Therefore, no formal response from Postal Service
                                     management was requested or required.



9
 The second report refers to this report, Compendium of Prior Audits Addressing the Postal Service’s Injury
Compensation Program (Report Number HM-OT-04-002, dated December 10, 2003.




                                                         12
Compendium of Prior Audits Addressing the Postal                               HM-OT-04-002
 Service’s Injury Compensation Program




               REPORT SUMMARIES ON CLAIMS PROCESSING

   Northern Virginia            We conducted a review in the Postal Service Northern
   District’s Process for       Virginia District on the timeliness, controverting, and
   Submitting,                  challenging of injury claims. We found the Northern Virginia
   Controverting, and           district supervisors and injury compensation specialist did
   Challenging Injury           not always properly controvert and challenge injury claims.
   Claims (Report               The injury compensation manager did not establish
   Number                       adequate management controls over injury claims to ensure
   HC-AR-99-001, Dated          policies and procedures established by the Postal Service
   September 29, 1999)          and the Federal Employees’ Compensation Act were
                                followed.

                                We recommended management hold supervisors
                                accountable for submitting injury claims in a timely manner.
                                In addition, managers should be directed to reemphasize
                                the importance of applying existing procedures when
                                processing and reviewing injury claims and to develop
                                additional management controls over injury claims.

                                Management agreed with eight recommendations and
                                disagreed with three recommendations. Specifically,
                                management agreed to develop a management tool and a
                                separate injury management kit that can be used to ensure
                                supervisors submit injury claims in a timely manner. In
                                addition, management agreed to apply existing procedures
                                when processing and reviewing injury claims. However,
                                management did not agree to review and validate time lag
                                data, stating this could be validated through the Department
                                of Labor Agency Query System. Management also did not
                                agree to ensure claim control registers are substantially
                                completed for all open and future claims case files. They
                                stated maintaining claim control registers was guidance in
                                their procedures, but was not a requirement. Finally,
                                management did not agree to provide original claim forms to
                                the Office of Workers’ Compensation Programs.




                                                   13
Compendium of Prior Audits Addressing the Postal                                 HM-OT-04-002
 Service’s Injury Compensation Program


   Allegation                   We initiated this review based on a complaint submitted to
   Concerning the               the OIG Hotline. The complainant alleged the Middlesex
   Middlesex District           Central District’s Injury Compensation Control Office
   Injury Claim Form            (Middlesex Control Office) staff was misusing injury claim
   CA-1 (Report Number          Form CA-1, Federal Employee’s Notice of Traumatic Injury
   HC-MA-00-001, Dated          and Claim for Continuation of Pay/Compensation, to request
   February 29, 2000)           employees' medical information from health care providers.

                                During this review, we found that since mid-1994, Injury
                                Compensation Control Office staff had inappropriately used
                                Injury Claim Form CA-1 as an authorization to request
                                employees’ medical information from health care providers.
                                Control office staff also was not aware of the directive issued
                                by the Office of Workers’ Compensation Programs advising
                                the Postal Service to cease using Form CA-1 as an
                                authorization to release medical records to the Office of
                                Workers’ Compensation Programs.

                                We offered management three suggestions for preventing
                                the inappropriate use of Injury Claim Form CA-1 and
                                ensuring that such inappropriate use is not prevalent and
                                widespread throughout the Postal Service.

                                In response to our recommendations, management took
                                immediate action to prevent inappropriate use of the
                                Form CA-1. A letter was issued directing the district offices
                                not to use Injury Claim Form CA-1 as an authorization to
                                request employees’ medical information. Management
                                actions were also responsive to our other recommendations.

   Allegation                   In the area of claims processing, we issued a report
   Concerning the               regarding the untimely submission of claims in the
   Untimely Submission          Albuquerque District. A review of 246 injury claims found
   of Injury Claims,            Postal Service managers were submitting injury claims on
   Albuquerque District         an average of 21 days late. The auditors found late claims
   (Report Number               submissions occurred because the district’s senior
   HC-MA-00-002, Dated          management did not enforce internal policies and
   March 21, 2000)              procedures requiring supervisors to file injury claims in a
                                timely manner. Further, they did not have a system for
                                holding supervisors accountable, and as a result, the Postal
                                Service could be subjected to legal remedies, including
                                criminal penalties.

                                We recommended Postal Service managers develop a
                                policy detailing supervisory responsibilities for processing



                                                   14
Compendium of Prior Audits Addressing the Postal                                                    HM-OT-04-002
 Service’s Injury Compensation Program


                                    injury claims and establish sanctions for supervisors who fail
                                    to submit injury claims in a timely manner. In addition, injury
                                    compensation training should be required and conducted
                                    annually for all Postal Service supervisors.

                                    Management agreed injury compensation training for
                                    supervisors is desirable, but did not agree training should be
                                    mandatory. Management advised us the Postal Service
                                    requires only two training classes, Ethics and Sexual
                                    Harassment. Management is currently revising the training
                                    program for injury compensation professionals and upon its
                                    completion will revise the supervisors’ portion of training in
                                    injury compensation. In the interim, management stated it
                                    would encourage Injury Compensation Control Offices in the
                                    field to update and use the existing supervisors’ training
                                    program until a new program is available.

     Shared Service                 In July 2001, the Postal Service began the shared service
     Center Injury                  center pilot with only three Eastern Area districts –
     Compensation                   Harrisburg, Erie, and Pittsburgh. The program later
     Program (Report                consolidated the remaining 12 Eastern Area districts10 into
     Number                         one performance cluster located in Pittsburgh,
     HK-AR-03-002, Dated            Pennsylvania. Our audit disclosed we could not determine
     June 19, 2003)                 how effective or efficient the shared service center program
                                    was because Postal Service could not provide
                                    documentation to support program implementation costs,
                                    operational costs, and estimated workers’ compensation
                                    savings. Additionally, we found the Postal Service did not
                                    adequately manage its resources to fully realize the planned
                                    benefits of the shared service center program. Furthermore,
                                    the program received unfavorable customer feedback, and
                                    did not meet the Postal Service’s internal goal for timely
                                    submission of claim forms to the Office of Workers’
                                    Compensation Programs.

                                    Without accurate documentation of program costs and
                                    estimated savings, better management of program
                                    resources, favorable customer feedback, and timely
                                    submission of claims to the Office of Workers’
                                    Compensation Programs, the Postal Service cannot ensure



10
  The districts included: Cleveland, Ohio; Philadelphia, Pennsylvania; Akron, Ohio; Lancaster, Pennsylvania;
Columbus, Ohio; Cincinnati, Ohio; Greensboro, North Carolina; South Jersey; Kentuckiana; Appalachian; Mid-
Carolinas; and Greater South Carolina.




                                                        15
Compendium of Prior Audits Addressing the Postal                                    HM-OT-04-002
 Service’s Injury Compensation Program



                                the program will meet its intended objectives. Specifically,
                                the Postal Service cannot adequately project staffing needs,
                                costs, and return on investment or measure performance.

                                We recommended the Postal Service reevaluate the shared
                                service center program to determine whether it meets the
                                anticipated objectives and warrants expansion to other
                                Postal Service areas. In addition, the Postal Service should
                                ensure program resources are properly managed and staff
                                is trained to fully realize the benefits of consolidating injury
                                compensation and accident reporting.




                                                   16
Compendium of Prior Audits Addressing the Postal                                HM-OT-04-002
 Service’s Injury Compensation Program



                         REPORT SUMMARIES ON
                   CONTINUATION OF PAY LEAVE BENEFITS

   South Jersey                 The audit revealed the South Jersey Performance
   Performance                  Cluster’s process for monitoring continuation of pay leave
   Cluster’s Process for        benefits for injured employees needed improvement.
   Administering                Specifically, supervisors and injury compensation control
   Continuation of Pay          office staff did not always process and monitor
   Leave Benefits               continuation of pay leave benefits properly. Consequently,
   (Report Number               management controls over the processing of
   HC-AR-00-001, Dated          continuation of pay leave benefits were ineffective to
   September 28, 2000)          prevent 23 unnecessary pay adjustments needed to
                                correct employees’ applicable sick, annual, or other leave
                                balances. The cost to process those pay adjustments was
                                estimated at $1,725. In addition, we identified continuation
                                of pay overpayments totaling about $822.

                                To correct the deficiencies associated with continuation of
                                pay leave benefits, we recommended Postal Service
                                managers reissue a district-wide policy requiring
                                supervisors to directly request authorization of continuation
                                of pay before any leave entries are made in the payroll
                                system. In addition, Postal Service managers should
                                establish management controls for monitoring continuation
                                of pay usage and implement a new management control
                                procedure for reconciling continuation of pay time and
                                attendance reporting.

                                Management agreed with our recommendations and
                                stated corrective actions will be implemented at the
                                beginning of FY 2001.

   Erie Performance             Our audit identified opportunities for improving the process
   Cluster’s Process for        of administering leave benefits received after a traumatic
   Administering                workplace injury. Specifically, the auditors found
   Continuation of Pay          supervisors did not always request authorization before
   Leave Benefits               providing leave benefits. In addition, the staff did not
   (Report Number               always monitor and accurately calculate this benefit for
   HC-AR-00-002, Dated          employees.
   September 28, 2000)




                                                   17
Compendium of Prior Audits Addressing the Postal                                    HM-OT-04-002
 Service’s Injury Compensation Program



                                We recommended management require advance
                                authorization for continuation of pay leave benefits before
                                any leave entries are made in the payroll system; perform
                                weekly reconciliation of employees’ continuation of pay
                                hours before time accounting is finalized in the payroll
                                system; and require specialists include the Continuation of
                                Pay/Leave Without Pay-Injury on Duty Timekeeping
                                Worksheet in the injury claim files to facilitate review of the
                                files.

                                Management agreed with our recommendations and
                                implemented corrective actions by instituting a new
                                management control procedure to perform front-end
                                reconciliation of continuation of pay hours and instructing
                                the manager, Injury Compensation, to use the
                                Continuation of Pay/Leave Without Pay-Injury on Duty
                                Timekeeping Worksheet to document all injury claim files.
                                Management also issued a district-wide policy requiring all
                                supervisors to follow Postal Service guidelines for
                                timekeeping and accounting and management control
                                procedures for the proper completion of all continuation of
                                pay leave requests.

   Lancaster                    The audit revealed the Lancaster Performance Cluster’s
   Performance                  process for monitoring continuation of pay leave benefits
   Cluster’s Process for        for injured employees needs improvement. Specifically,
   Administering                supervisors and injury compensation control office staff did
   Continuation of Pay          not always process and monitor continuation of pay leave
   Leave Benefits               benefits properly. Consequently, management controls
   (Report Number               over the processing of continuation of pay leave benefits
   HC-AR-00-003, Dated          were ineffective to prevent 51 unnecessary leave and
   September 28, 2000)          earnings pay adjustments totaling $3,825. In addition, we
                                identified continuation of pay overpayments totaling about
                                $328.

                                We recommended management require advance
                                authorization for continuation of pay leave benefits before
                                any leave entries are made in the payroll system; perform
                                weekly reconciliation of employees’ continuation of pay
                                hours before time accounting is finalized in the payroll
                                system; and require specialists to include the Continuation
                                of Pay/Leave Without Pay-Injury on Duty Timekeeping
                                Worksheet in the injury claim files to facilitate review of the
                                files.




                                                   18
Compendium of Prior Audits Addressing the Postal                                    HM-OT-04-002
 Service’s Injury Compensation Program



                                Management agreed with our recommendations and
                                implemented corrective actions.

   Cleveland                    The audit revealed the Cleveland Performance Cluster’s
   Performance                  process for monitoring continuation of pay leave benefits
   Cluster’s Process for        for injured employees needs improvement. Specifically,
   Administering                supervisors did not always request authorization before
   Continuation of Pay          continuation of pay leave benefits were paid to employees
   Leave Benefits               and injury compensation staff did not always properly
   (Report Number               monitor continuation of pay leave usage. Consequently,
   HC-AR-01-001, Dated          management controls over the processing and monitoring
   September 28, 2001)          of continuation of pay leave benefits were ineffective to
                                prevent 221 unnecessary leave and earnings pay
                                adjustments. The cost to process those pay adjustments
                                was estimated at $16,575. In addition, we identified
                                continuation of pay overpayments totaling about $5,505,
                                which represents funds that could have been put to better
                                use.

                                We recommended management require advance
                                authorization for continuation of pay leave benefits before
                                any leave entries are made in the payroll system; perform
                                weekly reconciliation of employees’ continuation of pay
                                hours before time accounting is finalized in the payroll
                                system; and require specialists to include the Continuation
                                of Pay/Leave Without Pay-Injury on Duty Timekeeping
                                Worksheet in the injury claim files to facilitate review of the
                                files.

                                Management agreed with our recommendations and
                                stated corrective actions will be implemented at the
                                beginning of FY 2002. Management also requested
                                information from the audit working papers on specific injury
                                claim numbers that required pay adjustments or had
                                overpayments. The audit team provided the requested
                                information.




                                                   19
Compendium of Prior Audits Addressing the Postal                                    HM-OT-04-002
 Service’s Injury Compensation Program




   Columbus                     The audit revealed the process for monitoring continuation
   Performance                  of pay leave benefits for injured employees needed
   Cluster’s Process for        improvement. Specifically, supervisors did not always
   Administering                request authorization before continuation of pay leave
   Continuation of Pay          benefits were paid to employees and injury compensation
   Leave Benefits               staff did not always properly monitor continuation of pay
   (Report Number               leave usage. Consequently, management controls over
   HC-AR-01-002, Dated          the processing and monitoring of continuation of pay leave
   September 28, 2001)          benefits were ineffective to prevent 57 unnecessary leave
                                and earnings pay adjustments. The cost to process those
                                pay adjustments was estimated at $4,275. In addition, we
                                identified continuation of pay overpayments totaling about
                                $6,902, which represents funds that could have been put
                                to better use.

                                We recommended management require advance
                                authorization for continuation of pay leave benefits before
                                any leave entries are made in the payroll system; perform
                                weekly reconciliation of employees’ continuation of pay
                                hours before time accounting is finalized in the payroll
                                system; and require specialists to include the Continuation
                                of Pay/Leave Without Pay-Injury on Duty Timekeeping
                                Worksheet in the injury claim files to facilitate review of the
                                files.

                                Management agreed with our recommendations and
                                stated corrective actions will be implemented at the
                                beginning of FY 2002.

   Closure Letter on Our        In April 2000, we initiated multiple audits in the Allegheny
   Audit of the                 Area to review the process for administering continuation
   Continuation of Pay          of pay leave benefits. Subsequently, we issued separate
   Leave Benefits in the        reports for Cleveland, Columbus, Erie, Lancaster, and
   Allegheny Area               South Jersey Performance Clusters and completed
   (Dated October 26,           fieldwork in the Philadelphia Performance Cluster.
   2001)                        Because our reported work had not identified areas of
                                significant risk to Postal Service operations, we
                                discontinued our audit work on continuation of pay leave
                                benefits in the Allegheny Area. Thus, we did not issue a
                                report for the Philadelphia Performance Cluster or a
                                summary roll-up report for the Allegheny Area as
                                previously planned. Instead, we reallocated the audit
                                resources to other audit projects we identified as higher
                                risks.



                                                   20
Compendium of Prior Audits Addressing the Postal                         HM-OT-04-002
 Service’s Injury Compensation Program



                               Summary of Recommendations

In our previously issued 16 reports (excluding this report, one closeout letter, and
two other information reports wherein no recommendations were made), we provided
Postal Service management with 50 recommendations. Although we have not
confirmed, in all cases, the recommendations made have been implemented, we would
like to take this opportunity to reemphasize the importance of those recommendations
on the Postal Service’s Injury Compensation Program. The implementation of the
reported recommendations would assist management in addressing the major
management challenges inherent to the Postal Service’s Injury Compensation Program.




                                                   21
